<html>
<title> - RESOLUTION DISMISSING ELECTION CONTEST RELATING TO SECOND CONGRESSIONAL DISTRICT, STATE OF HAWAII</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



   RESOLUTION DISMISSING THE ELECTION CONTEST RELATING TO THE SECOND 
                CONGRESSIONAL DISTRICT, STATE OF HAWAII

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JULY 9, 2003

                               __________

      Printed for the use of the Committee on House Administration


89-053              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                           BOB NEY, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut,
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                 George Shevin, Minority Staff Director

 
RESOLUTION DISMISSING ELECTION CONTEST RELATING TO SECOND CONGRESSIONAL 
                       DISTRICT, STATE OF HAWAII

                              ----------                              


                        WEDNESDAY, JULY 9, 2003

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:30 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Mica, Linder, 
Doolittle, Larson, and Brady.
    Staff Present: Paul Vinovich, Staff Director; Jeff Janas, 
Clerk; Jennifer Hing, Assistant Clerk; Fred Hay, Counsel; 
George Shevlin, Minority Staff Director; Charles Howell, 
Minority Chief Counsel; Matt Pinkus, Minority Professional 
Staff; and Catherine Tran, Minority Staff Assistant.
    The Chairman. The committee will come to order. There is a 
single item before the committee which we will address before 
we commence into our hearing, a resolution dismissing an 
election contest arising from the Second Congressional District 
of Hawaii.
    The clerk will read the motion.
    The Clerk. Resolved that the election contest relating to 
the office of the Representative from the Second Congressional 
District of Hawaii is dismissed.
    The Chairman. I would like to recognize the gentleman from 
Connecticut, our ranking member, Mr. Larson.
    Mr. Larson. Thank you very much, Mr. Chairman.
    Mr. Chairman, the committee has determined on a bipartisan 
basis that this election contest is without merit. Therefore, I 
move that the committee report the resolution dismissing this 
contest favorably to the House.
    The Chairman. The question is on the motion. Those in favor 
of the motion will say aye.
    Those opposed will say no.
    The motion is agreed to. A motion dismissing the election 
contest will be reported favorably to the House.
    The gentleman from Michigan.
    Mr. Ehlers. Mr. Chairman, may I have a point of personal 
privilege for a few moments?
    The Chairman. Without objection.
    Mr. Ehlers. Thank you. Before we get into this very 
important hearing, I first have to apologize. I have to speak 
on the bill that is on the floor right now, so I will be 
leaving shortly; I will attempt to get back later.
    I just wanted to raise an issue of concern to me that is 
under the jurisdiction of this committee, and that is the tours 
of the Capitol. I believe that the tour service is not working 
as well as it should. I realize we are waiting for the new 
Visitors Center, but what we have done in the meantime is, 
Members have filled the gap by providing the staff-led tours. 
That is simply getting out of hand. This morning as I walked 
through the hallway, there were over 200 people lined up just 
to get their little sticker to take a staff-led tour.
    Plus I listened to some staff members talking to each 
other. One said he was doing one or more tours a day for people 
from his district. The intent of the tour service, which 
incidentally does a very good job, I suspect a better job than 
most members of the staff because they know the history of the 
building, they should be giving these tours. We should be 
making provision for that and meeting the needs of our 
constituents in that way instead of using our staff time to do 
it.
    I just wanted to get that statement on the record. I hope 
that you and other members of this committee can addressthat 
with the appropriate individuals involved and expand the Capitol tour 
service. Thank you.
    The Chairman. I thank the gentleman for his comments. Just 
for those who aren't familiar, we have a give-and-take on this 
issue. There is a board; it has certain votes. This committee 
has oversight.
    We try to work together. Sometimes we agree; sometimes we 
don't. If we don't agree, we can have an oversight hearing.
    We have had a fairly harmonious give-and-take on this 
issue. I have been insistent, I know, and I will let our 
ranking member speak for himself, but we have had 
conversations, and he has been insistent on keeping this 
Capitol open. The Speaker of the House, Speaker Hastert, has 
said many, many times that we are going to enhance the 
security, but keep the People's House open. We are going to be 
calm but cautious. That is the approach we have tried to take.
    I have struggled actually to get it to the 15-per-staff-
member tour. There was a move to take it to eight. I think it 
ought to be expanded.
    I think we have stabilized a lot of security issues. We 
have always got to watch; nothing is ever perfect. But I take 
your comments to heart. We will proceed to have another give-
and-take on doing it.
    I am happy to say, we have kept the building open. Only 
when we went to war with Iraq for a momentary, small period of 
time did we stop the public tours so the Capitol Hill police, 
because we were short, could focus more on the police beat 
issues, on the street and more visibility.
    Having said that, we still kept the tours open by the staff 
because at no point in time did we say, we're going to just 
shut this down. I am proud of the fact we have been able to do 
that, but I think there is room to grow on keeping more entry 
and ability for people to enjoy the building. Thank you.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Mr. Larson. Mr. Chairman, I would just like to associate 
myself with the remarks from the gentleman from Michigan and 
concur with the concerns that he has raised. We have heard from 
several Members who have the very same concerns that you do, 
while at the same time acknowledging the very delicate balance 
that we share here, providing both security and access at the 
same time.
    Obviously, with the great hope of the Visitors Center that 
will be in place in 2005, we will alleviate a lot of the 
concerns that we have. But I concur with the chairman, I think 
there is room to grow. It certainly is worthy of further 
contemplation and work on our part to enhance the ability to 
get people through here in a timely, orderly, and in your words 
and in the Speaker's words, calm and cautious manner.
    The Chairman. I thank both the gentlemen.
    Concluding--back to the regular order, concluding some 
unfinished business, I ask unanimous consent that members have 
7 legislative days for statements and materials to be added 
into the appropriate place in the record. Without objection, 
the material will be so entered.
    I also ask unanimous consent that staff be authorized to 
make technical and conforming changes on all matters considered 
by the committee at this meeting. Without objection, so 
ordered.
    Having completed this item of business, the committee will 
momentarily recess as we prepare to begin our hearing. Thank 
you.
    [Whereupon, at 2:35 p.m., the committee meeting was 
adjourned.]

</pre></body></html>
